E-Mail Address: 1115 H Street, N.E.
Est Joa! briefs@wilsonepes.com Washington, D.C. 20002

WSN H TG Web Site: Tel (202) 789-0096
exces www.wilsonepes.com Fax (202) 842-4896
No. 20-1786

JOANNE TROESCH AND IFEOMA NKEMDI,

Petitioners,
v.

CHICAGO TEACHERS UNION, LOCAL UNION No. 1,
AMERICAN FEDERATION OF TEACHERS, and
THE BOARD OF EDUCATION OF THE CITY OF CHICAGO,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on July 23, 2021, three (3) copies of the BRIEF OF THE FREEDOM
FOUNDATION AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above-captioned
case were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

WILLIAM L. MESSENGER THOMAS ARTHUR DOYLE
NATIONAL RIGHT TO WORK BOARD OF EDUCATION OF THE

LEGAL DEFENSE FOUNDATION, INC. CITY OF CHICAGO (LAW DEPARTMENT)
8001 Braddock Road, Suite 600 1 North Dearborn, 9th Floor
Springfield, VA 22160 Chicago, IL 60602
(703) 321-8510 (773) 553-1720
Counsel for Petitioners JOSHUA B, SHIFFRIN

BREDHOFF & KAISER PLLC

805 15th Street Northwest, Suite 1000
Washington, DC 20005

2028422600

Counsel for Respondents
The following email addresses have also been served electronically:
wlm@artw.org
tadoyle2@cps.edu
jsbiffrin@bredhoff.com
JAbernathy@freedomfoundation.com ( W if

ROBYN DorsEyY WILLIS.

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 23rd day of July 2021,

   

COLIN CASEY F[OGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
